     Department of Homeland Security




              FEMA Public Assistance Grant Funds
           Awarded to City of Pompano Beach, Florida -
                        Hurricane Katrina




DA-12-17                                             May 2012

                                  OFFICE OF INsPECTOR GENERAL
                                       Department of Homeland Security
                                       Washington, DC 20528 / www.oig.dhs.gov



                                                  MAY - 3 2012


MEMORANDUM FOR:                        Major P. (Phil) May




FROM:




SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       City of Pompano Beach, Florida - Hurricane Katrina
                                       FEMA Disaster Number 1602-DR-FL
                                       Audit Report Number DA-12-17

We audited public assistance funds awarded to the City of Pompano Beach, Florida,
(City) (FIPS Code 011-58050-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The City received a public assistance award of $658,530 from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Katrina, which occurred in August 2005. The award provided 100% FEMA funding for
debris removal, emergency protective measures, and repairs to a facility. The award
consisted of two large projects and two small projects. 1

We reviewed costs totaling $581,141 claimed under one large project (Project 502). The
audit covered the period from August 24, 2005, to July 20, 2011, during which the City
received $581,141 of FEMA funds under the project. At the time of the audit, work
under the project was complete, but the City had not submitted a final claim on project
expenditures to the State.

We conducted this performance audit between August 2011 and February 2012
pursuant to the Inspector General Act of 1978, as amended, and according to
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide


1   Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   a reasonable basis for our findings and conclusions based upon our audit objective.
   We believe that the evidence obtained provides a reasonable basis for our findings
   and conclusions based upon our audit objective. We conducted this audit applying
   the statutes, regulations, and FEMA policies in effect at the time of the disaster.

   We interviewed FEMA, State, and City officials and judgmentally selected samples of
   project costs (generally based on dollar value); reviewed the City’s procurement policies
   and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary to accomplish our audit objective.
   We did not assess the adequacy of the City’s internal controls applicable to its grant
   activities because it was not necessary to accomplish our audit objective. However, we
   gained an understanding of the City’s method of accounting for disaster-related costs
   and its policies and procedures for administering activities provided for under the FEMA
   award.

                                      RESULTS OF AUDIT

   The City accounted for FEMA projects on a project-by-project basis as required by
   Federal regulations and FEMA guidelines. However, we identified $230,980 of
   questioned costs under Project 502, consisting of $150,668 of ineligible debris removal
   charges and $80,312 of unsupported costs.

   Finding A: Debris Removal Charges

   The City’s claim contained $150,668 of excessive debris removal charges. The City
   claimed $581,141 to collect and haul vegetative and construction and demolition (C&D)
   debris citywide. The debris work was divided into two phases. Phase I consisted of
   collecting and hauling the debris from the rights-of-way to a staging area, and phase II
   consisted of hauling the debris from the staging area to a final disposal site. The debris
   was reduced at the final disposal site (landfill).

   During phase I, the City claimed that 23,123 cubic yards of vegetative and C&D debris
   was collected and hauled to the staging area by the City’s force account and a
   contractor. Under phase II, the City claimed that 33,290 cubic yards of debris was
   transported by the contractor from the staging area to the landfill. However, this
   amount is 10,167 cubic yards more than what was collected under phase I. The 10,167
   cubic yards represents 695 cubic yards of vegetative debris and 9,472 cubic yards of
   C&D debris. The City’s claims for both phases were fully supported by load tickets.




www.oig.dhs.gov                                2                                         DA-12-17
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
   City officials could not explain the reason for the discrepancy of 10,167 cubic yards.
   Therefore, as shown in table 1, we question $150,668 of charges related to the 10,167
   cubic yards of debris that the City claimed was transported from the staging area to the
   landfill, but not collected under phase I.

                                Table 1: Excessive Contract Charges
                                                  Vegetative        C&D         Total
                  Description of Work            (Cubic Yards) (Cubic Yards) Cubic Yards
       Debris hauled from rights-of-way to          19,102.85        4,020.00  23,122.85
       staging area (Phase I)
       Debris hauled from staging area to           19,798.00     13,492.00    33,290.00
       landfill (Phase II)
       Cubic yards claimed in excess                    695.15       9,472.00  10,167.15
       Rate                                             $10.25         $14.25
       Total excess charges                         $7,125.29 $134,976.00 $142,101.29
       Additional fuel surcharge (0.060287)             429.56       8,137.30   8,566.86
       Totals                                       $7,554.85 $ 143,113.30 $150,668.15

   Finding B: Supporting Documentation

   The City’s claim under Project 502 included $80,312 of unsupported costs. The City
   claimed $80,312 for the use of force account equipment (trash trucks, loaders, vehicles,
   and a boat) to collect debris from the rights-of-way and haul it to a staging area.
   However, the City did not have equipment activity logs to support the use of the
   equipment. Cost Principles in Code of Federal Regulation (CFR) 225, Cost Principles for
   State, Local, and Indian Tribal Governments, Appendix A, Section C.1.j, state that a cost
   must be adequately documented to be allowable under federal awards. 2 Therefore, we
   question the $80,312 of unsupported costs.

                                                RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

            Recommendation #1: Disallow $150,668 of ineligible debris removal costs
            claimed (finding A).

            Recommendation #2: Disallow $80,312 of unsupported charges (finding B).


   2
    OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR, Part 225, on
   August 31, 2005.

www.oig.dhs.gov                                         3                                            DA-12-17
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the audit results with City, State, and FEMA officials during our audit. We
   also provided written summaries of our findings and recommendations in advance to
   these officials and discussed them at an exit conference held on February 24, 2012. City
   officials did not concur with our findings at the exit conference and requested additional
   time to review and/or locate documentation to support the questioned costs. On
   March 7, 2012, City officials provided additional documentation for our consideration.
   However, the documentation did not contain any new information to cause us to revise
   our findings.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   William Johnson, Audit Manager; Oscar Andino, Auditor-in-charge; Jerry Aubin, Auditor;
   and Calbert Flowers, Auditor.

   Please call me with any questions, or your staff may contact David Kimble, Eastern
   Region Audit Director, at (404) 832-6702.

   cc:     	Administrator, FEMA
           Audit Liaison, FEMA Region IV
           Audit Liaison, FEMA (Job Code G-12-001)
           Audit Liaison, DHS




www.oig.dhs.gov                                4	                                       DA-12-17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
